No.

]n tbe ~upreme C!Court of tbe Wniteb ~tateg
FRANKLIN RAFAEL LOPEZ TOALA,

Petitioner,
v.

UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Eleventh Circuit
CERTIFICATE OF SERVICE

BRIAN P. BATTAGLIA

Counsel of Record

BLEAKLEY BAVOL DENMAN
&GRACE

15316 N. Florida Avenue
Tampa, FL 33613
(813) 221-3759
bbattaglia@bbdglaw.com
eservice@bbdglaw.com

Counsel for Petitioner

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this date, August 20th, 2020, as required by
Supreme Court Rule 29 and 29.1, I served this certificate of service, motion for leave
to proceed in forma pauperis, petitioner's petition for a writ of certiorari, petitioner's
appendix and certificate of word count, all of which are in paper form, for filing with
the Supreme Court of the United States c/o Clerk of the Supreme Court of the United States, along with a copy of each of the foregoing documents having also been
served on each party to the above proceeding or that party's counsel, and on every
other person required to be served, via a third-party commercial carrier, Federal
Express, by depositing the above documents into a Federal Express overnight delivery package and delivering same to Federal Express in a Federal Express overnight
delivery package that has been properly addressed to each of them, with all Federal
Express overnight delivery fees pre-paid in full. The names and addresses of those
served are as follows:

Supreme Court of the United States
c/o Clerk of the Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
(Federal Express Tracking Number 816008962027).
And
Solicitor General of the United States
Department of Justice, Room 5616
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
supremectbriefs@usdoj.gov
(Federal Express Tracking Number 816008962038).

1

August 20th, 2020

tif~~p'
~;:rv----..
BRIAN PjiATTGLlA

Counsel of Record

BLEAKLEY BAVOL DENMAN

15316 N. Florida Avenue
Tampa, FL 33613
(813) 221-3759
bbattaglia@bbdglaw.com
eservice@bbdglaw.com

Counsel for Petitioner

2

& GRACE

